DATE:        March 1, 2007


TO:           David A. Elizalde, Director
              Division of Acquisition and Cooperative Support (DACS)

FROM:         Jannifer Jenkins
              Senior Audit Manager, OIG


SUBJECT:      NSF OIG Audit Report No. OIG-07-1-002, Audit of Mathematica Policy
              Research (MPR), Inc.’s Incurred Costs Under Contract Nos. SRS-0244879
              and SRS-0420325, and DOB-0133044 for Fiscal Years (FY) 2001 through
              2004


In response to your request for an audit of Mathematica Policy Research (MPR), Inc.’s
Fiscal Years (FYs) 2001 to 2004 (January 1, 2001 to December 31, 2004) incurred cost
proposal submissions claimed under NSF Contract Nos. SRS-0244879 and SRS-
0420325, we contracted with the Defense Contract Audit Agency (DCAA). DCAA
performed these audits to: 1) recommend contracting officer determined indirect cost
rates for FYs 2001 through FY 2004; 2), determine allowability of direct and indirect
costs claimed by MPR for FYs 2001 to 2004; and 3) determine whether MPR’s
accounting system is adequate for accumulating, reporting, and billing costs on
government contracts and subcontracts. In addition, DCAA audited the claimed direct
and indirect costs on Contract No. DOB-0133044. The DCAA audits were performed in
accordance with Generally Accepted Government Auditing Standards. The results of
DCAA audits are summarized below. The complete audit reports are attached.


                                    Background

MPR was incorporated in the State of Delaware in 1976 and its sales totaled xxxxx
million for the year ended December 31, 2005. MPR employs xxxx personnel to provide
economic research and data collection services to various customers. Approximately
xxxx or xxxx million of MPR’s income is from Federal government contracts and
subcontracts. MPR’s remaining xxxxx million of income is generated from sales to
commercial entities. NSF awarded MPR a total of $10,745,007 in contracts between FYs
2001 to 2006. MPR claimed costs totaling $6,572,140 under contract nos. SRS-0244879,
SRS-0420325, and DOB-0133044 for FYs 2001 to 2004.

                               Summary of Audit Results

In its audit of MPR, Inc., DCAA Southern New Jersey Branch Office found the
following:

Indirect Costs Rates: The DCAA auditors determined that, except for the adjustments
summarized below MPR’s proposed indirect cost rates for FYs 2001 through 2004 are
acceptable. The following is the summary of questioned indirect expenses for FY 2001
through FY 2004.

The DCAA auditors questioned a total of $43,644 xxxxxxxx of the total xxxxxx million
claimed in the overhead expense pools for FYs 2001 through 2003 (i.e. $30,667, $5,584
and $7,393 was questioned for FYs 2001, 2002, and 2003, respectively). For FY 2001,
$31,467 xxxxxxxx of the total xxxx million claimed was questioned in the G&A expense
pool and $8,016 xxxxxxxxxxx of the xxxxx million claimed was added to the G&A base.
For FY 2004, $31,779 xxxxxxx of the total xxxx million claimed was added to the G&A
total cost input base and $8,115 xxxxxxx of the xxx million claimed was questioned from
the overhead expenses.

Specifically, $43,644 in the overhead expense pools for FYs 2001 through 2003 were
questioned primarily because of unallowable costs claimed for outside services, travel,
subsistence, license fees, employee morale and miscellaneous expenses; duplicate and
misclassified miscellaneous expenses; and a misallocation of indirect costs to an
affiliated MPR company. The auditors questioned $31,467 of the FY 2001 G&A
expense pool because of unallowable travel and other costs; unallowable bid and proposal
costs which resulted due to adjustments of the claimed and audited overhead burden
rates; and adjustments of overhead expenses related to misallocations of indirect costs to
MPR’s affiliated company. The FY 2001 G&A base was increased by xxxxx because of
reclassified food, beverage and printing costs and the misallocation of indirect costs to an
affiliated MPR company. For FY 2004, xxxxxxx was added to the G&A expense pool to
accurately reflect immigration expenses and $8,115 was questioned in the of the FY 2004
overhead base because of unallowable license fees, travel, subsistence, recruiting, and
miscellaneous expenses and unallocable outside legal services and travel costs.


        .          .                           .
A summary of proposed and recommended indirect cost rates that resulted from the audit
can be found in Attachment 1.

Direct Costs: The DCAA auditors determined that, except for the qualifications


                                             2
previously noted above in MPR’s indirect cost rates, MPR’s claimed direct costs totaling
$2,818,747 for NSF contract nos. SRS-0244879, SRS-0420325, and DOB-0133044 for
FYs 2001 through FY 2004, are acceptable.

Contractor’s Accounting System: The DCAA auditors found that MPR’s accounting
system is adequate for accumulating, reporting, and billing costs on government contracts
and subcontracts.

Recommendation

Based on the attached DCAA audit reports and the disclosed findings we are making the
following recommendation:

Recommendation No. 1: We recommend that the Director of the Division of Acquisition
and Cooperative Support (DACS) negotiates MPR, Inc.’s indirect cost rates to reflect
DCAA’s audit findings and adjust claimed costs accordingly.

MPR, Inc.’s representatives concurred with DCAA’s audit findings and its recommended
indirect cost rates for FY 2001 through FY 2004.

We are providing a copy of this memorandum to the Directors of the Division of Science
Resources Statistics (SRS) and the Division of Budget (DOB). The responsibility for
audit resolution rests with DACS. Accordingly, we ask that no action be taken
concerning the reports’ findings without first consulting DACS at (703) 292-8242.


                                OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings, and recommendations;

   •   Reviewed the audit reports, prepared by DCAA to ensure compliance with
       Generally Accepted Government Auditing Standards; and

   •   Coordinated issuance of the audit reports.




                                             3
DCAA is responsible for the attached auditor’s reports on MPR, Inc. and the conclusions
expressed in the reports. The NSF OIG does not express any opinion on MPR’s incurred
cost submissions, indirect cost rates, accounting system, or the conclusions presented in
DCAA’s audit report.

We thank you and your staff for the assistance that was extended to us during the audit. If
you have any questions about the attached report, please contact David Eid at (703) 292-
4975 or Jannifer Jenkins at (703) 292-4996.




Attachment

cc:    Linda T. Carlson, Director, SRS
       Martha A. Rubenstein, Director, DOB
       Mary Santonastasso, Director, DIAS




                                            4
                                                                        Attachment 1
                  Summary of Results of Audits of Indirect Rates

                                                                                       DCAA
                                                                                       Recommended
                             Proposed                         Questioned
                                   Expense                            Expense         Rates
Indirect Category   Base             Pool       Rate       Base         Pool     Rate    Rate
FY 2001
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx xxxxxxxxxxxxxx $     0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $     0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $ 30,667.00 xxxxx Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $      0    0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $ 31,467.00 Xxxxx Xxxxxxxxxxx

Indirect Category
FY 2002
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $ 5,584.00 Xxxxx Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx

Indirect Category
FY 2003
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $ 7,393.00 Xxxxx Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0     0.00% Xxxxxxxxxxx



Indirect Category
FY 2004
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0    0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0    0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx xXxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $ 8,115.00 xxxxx Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxx Xxxxxxxxxxxxxx $    0    0.00% Xxxxxxxxxxx
xxxxxxxxxxxxxx Xxxxxxxxxxxxxxx Xxxxxxxxxxxxxxx xxxxxx xxxxxxxxxxxxxx $0        0.01% xxxxxxxxxxx




                                          5
            DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6341-2001A10100017
                                                                 August 22, 2003

PREPARED FOR: Department of Health and Human Services
              Centers for Medicare & Medicaid Services
              ATTN: Christopher Hagepanos, M.S. C2-21-15
              7500 Security Blvd.
              Baltimore, MD 21244

PREPARED BY:     DCAA Southern New Jersey Branch Office
                 Woodcrest Pavilion
                 10 Melrose Avenue, Suite 200
                 Cherry Hill, NJ 08003-3647
                     Telephone No.      (856) 354-7550
                     FAX No.            (856) 354-7520
                     E-mail Address     dcaa-fao6341@dcaa.mil

SUBJECT:         Audit of Fiscal Years 1999 and 2000 Direct Costs and
                 Fiscal Year 2001 Direct and Indirect Costs

CONTRACTOR:      Mathematica Policy Research, Inc.
                 600 Alexander Park
                 Princeton, NJ 08543-2393

REPORT RELEASE RESTRICTIONS: See Page 20

                                                                            Page
CONTENTS:         Subject of Audit                                            1
                  Scope of Audit                                              2
                  Results of Audit                                            3
                  Contractor Organization and Systems                        16
                  DCAA Personnel and Report Authorization                    17
                  Audit Report Distribution and Restrictions                 18
                  Certificate of Final Indirect Costs FY 2001             Appendix 1
                  Indirect Cost Rate Agreement Letter FY 2001             Appendix 2
                  Contractor’s Objection to Release Statement             Appendix 3




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017                                          APPENDIX 1

                                     SUBJECT OF AUDIT

        We examined the Mathematica Policy Research, Inc. (MPR) July 28, 2000, June 22, 2001,
October 23, 2002 certified final indirect cost rate proposals and related books and records for
reimbursement of the Fiscal Years Ended December 31, 1999, December 31, 2000, and
December 31, 2001, incurred costs, respectively. The purpose of the examination was to
determine the allowability and allocability of direct costs and Time and Material (T&M) amounts
for the Fiscal Years of January 1, 1999 through December 31, 1999 and January 1, 2000 through
December 31, 2000 for the Department of Health and Human Resources (DHHS) contracts and
subcontracts and to determine the allowability and allocability of direct costs, T&M amounts and
indirect costs and establish audit determined indirect cost rates for the Fiscal Year of January 1,
2001 through December 31, 2001 for the DHHS, Department of Defense (DoD), and Social
Security Administration (SSA) contracts and subcontracts. The proposed rates for FY 2001 apply
primarily to the flexibly priced contracts and subcontracts listed in Exhibit B. Copies of the
Mathematica Policy Research Certificate of Final Indirect Costs dated October 23, 2002 for FY
2001 is included as Appendix 1 to this report.

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.


                                       SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records reviewed;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist assistance.

       We evaluated the proposal using the cost principles contained in the:

       •    Federal Acquisition Regulation (FAR), and
       •    Defense Federal Acquisition Regulation (DFARS)
       •    Cost Accounting Standards.




                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

        The Mathematica Policy Research, Inc. accounting system is considered adequate for the
accumulation, reporting, and billing costs on government contracts and subcontracts as described
in the Contractor’s Organization and Systems section of this report. Our audit scope reflects the
risk of unallowable costs being included in the proposal and includes expanded testing to provide
a reasonable basis for our opinion.

       The concurrent verification of both labor and materials were omitted in this examination.


QUALIFICATIONS

1. Due to the Department of Agriculture, Department of Labor and Department of Education,
Department of Justice, and National Science Foundation’s (NSF) inability to fund this audit, our
review of direct cost was limited to the direct costs and T&M amounts related to the DHHS for
FYs 1999 and 2000 auditable prime contract effort and DHHS, DoD, and SSA for FY 2001
auditable prime and subcontract effort. Our audit is qualified to the extent that the audit of direct
and indirect costs for the reimbursable departments mentioned above that did not fund their share
of the audit. Therefore, we express no opinion on the allowability, allocability, and
reasonableness of the recorded cost related to flexibly priced contracts and subcontracts for the
Agencies identified above. The information contained in the report is not acceptable as a basis
for determining allowability, allocability, and reasonableness of the unaudited direct costs for
contract closeout purposes that pertain to Agriculture, Labor, Education, Justice, and NSF.

2. Due to the DHHS inability to fund required assist audits of auditable subcontracts, our audit
of these direct costs under DHHS flexibly priced prime contracts for FYs 1999, 2000, and 2001
in the amounts of $2,841,709, $3,168,921, and $1,719, 049, respectively is qualified to the extent
that the audit of the auditable subcontract direct and indirect costs billed to MPR was limited to
the verification of the recorded direct costs on the contractor’s books of record. Therefore, we
express no opinion on the allowability, allocability, and reasonableness of these recorded direct
costs related to auditable subcontracts under the auditable DHHS flexibly priced prime contracts
for FYs 1999, 2000, and 2001. The information contained in the report is not acceptable as a
basis for determining allowability, allocability, and reasonableness of the direct costs for
contract closeout purposes that pertain to subcontract direct costs under auditable DHHS flexibly
priced prime contracts for FYs 1999, 2000, and 2001.


                                      RESULTS OF AUDIT

       Indirect Rates. In our opinion, the contractor’s proposed indirect rates are acceptable as
adjusted by our examination. The examination results and recommendations are presented
below. The enclosed Indirect Cost Rate Agreement, Appendix 1, documents the contractor's
concurrence with our findings and recommendations.




                                                 2

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

        Direct Costs. In our opinion, except for qualification 2 as noted above, the claimed direct
costs for FYs 1999 and 2000 under the DHHS flexibly priced contracts and subcontracts and for
FY 2001 under DHHS flexibly priced contracts and subcontracts, DoD subcontract delivery
orders, and the SSA contract are acceptable and are provisionally approved pending final
acceptance. Final acceptance of amounts under government contracts does not take place until
performance under the contract is completed and accepted by the cognizant authorities and the
audit responsibilities have been completed.

        Penalties for Unallowable Costs. The examination found expressly unallowable costs
subject to the penalties of $25,261 and $15,107 in the Overhead and G&A expense pools,
respectively. Refer to Notes 2 through 6 and 9 through 11 of Exhibit A for details. Of these
amounts, $5,998 and $3,461 in the Overhead Burden and G&A expense pools, respectively were
allocable to the contracts specified in provided in FAR 42.709(b). Affected prime contracts are
identified in Exhibit B, Page 17. The amounts are recommended for penalties, but are less than
the $10,000 waiver threshold discussed in FAR 42-709-5. Additional information regarding the
above penalties will be provided upon request. Our recommendations concerning the interest to
be recovered on unallowable costs paid will be furnished when we receive your determination on
penalties to be assessed.


                              SUMMARY OF AUDIT RESULTS
                              Fiscal Year Ended December 31, 2001

                                          Proposed                              Questioned
     Indirect                             Expense                                Expense
    Category                Base            Pool           Rate       Base        Pool         Rate   Ref.
  xxxxxxxxxxx        a   xxxxxxxxxx      Xxxxxxxxxx      xxxxxxxx   xxxxxxx        $0            -      -
  Xxxxxxxxxxx        b   Xxxxxxxxx       Xxxxxxxxxx      xxxxxxxx   xxxxxxx        $0            -      -
  Xxxxxxxxxxx        c   Xxxxxxxxx       xxxxxxxxxx      xxxxxxxx   xxxxxxx      $30,667       xxxx   Ex. A
  Xxxxxxxxxxx        d   Xxxxxxxxx       xxxxxxxxxx      xxxxxxxx   xxxxxxx        $0            -      -
  xxxxxxxxxxx        e   Xxxxxxxxx       xxxxxxxxxx      xxxxxxxx   xxxxxxx      $31,467       xxxx   Ex. A

( ) Denotes an upward adjustment

Description of Allocation Bases:

       a.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       b.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       c.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       d.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       e.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                3

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017



              GOVERNMENT PARTICIPATION IN ALLOCATION BASES
                      Fiscal Year Ended December 31, 2001

                               Contract Type In Allocation Base
                             Government         Government
                             Flexibly Priced    Firm Fixed Price and
Category                     Contracts/Subs     Commercial Work                   Total
xxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxxxxx           xxxxxxxxxxxxx               xxxxxxx
x
Xxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxxxxx              xxxxxxxxxxxxx            xxxxxxx
x
Xxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxxxxx              xxxxxxxxxxxxx            xxxxxxx
x
Xxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxxxxx              xxxxxxxxxxxxx            xxxxxxx
x
xxxxxxxxxxxxxxxxxxxxx         xxxxxxxxxxxxx              xxxxxxxxxxxxx            xxxxxxx
x


        We have included a listing of the cumulative allowable costs for the flexibly priced
DHHS contracts, DoD subcontract delivery orders, and the SSA contract as an attachment to the
Indirect Cost Rate Agreement Letter for FY 2001 (Appendix 2). This information should assist
your monitoring the status of contract awaiting closeout. Upon receipt of the contractor's final
voucher, our office will issue you a Contract Audit Closing Statement (CACS).

        We provided and discussed the audit results with xxxxxxxxxxxxxx and xxxxxxxxxxxxxx
Contractor Representatives, on June 17, 2003. They concurred with our findings. The enclosed
Indirect Cost Rate Agreement for FY 2001 (Appendix 4) documents the contractor’s
concurrence with our findings and recommendations.




                                               4

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                                                                            EXHIBIT A



                                                   Overhead      G&A         Ref.
Contractor's Indirect Expenses:
Total Indirect Expenses                        xxxxxxxxxxx    Xxxxxxxxxxx
Voluntary Deletions                            Xxxxxxxxxxx    Xxxxxxxxxxx   Note 1
Claimed Costs                           (A)    Xxxxxxxxxxx    Xxxxxxxxxxx


Results of Audit Review
Questioned Expenses:
Outside Services                               Xxxxxxxxxxx                  Note 2
Travel & Subsistence                           Xxxxxxxxxxx                  Note 3
Licenses and fees                              Xxxxxxxxxxx                  Note 4
Miscellaneous Expenses                         Xxxxxxxxxxx                  Note 5
Employee Morale Expenses                       Xxxxxxxxxxx                  Note 6
Travel                                                        Xxxxxxxxxxx   Note 7
Other Expenses                                                Xxxxxxxxxxx   Note 8
B&P Adjustment                                                Xxxxxxxxxxx   Note 9
Allocation to Affiliated Company               Xxxxxxxxxxx    Xxxxxxxxxxx   Note 10

Total Questioned Expenses               (B)    Xxxxxxxxxxx    Xxxxxxxxxxx
Adjusted Expenses (A-B)                 (C)    Xxxxxxxxxxx    Xxxxxxxxxxx


Allocation Bases:
Claimed Bases                           (D)    Xxxxxxxxxxx    Xxxxxxxxxxx
Adjustments to Bases
Reclassified Food and Beverage Costs                          Xxxxxxxxxxx   Note 5
Reclassified Printing Costs                                   Xxxxxxxxxxx   Note 8
Allocation to Affiliated Company                              Xxxxxxxxxxx   Note 10
Audit Adjusted Bases                    (E)    Xxxxxxxxxxx    Xxxxxxxxxxx


Indirect Expense Rates
Claimed Rates                          (A/D)   Xxxxxxxxxxx    Xxxxxxxxxxx
Audit Adjusted Rates                   (C/E)   Xxxxxxxxxxx    Xxxxxxxxxxx
Questioned Rates                               xxxxxxxxxxx    Xxxxxxxxxxx


( ) Denotes an upward adjustment




                                               5

                                   XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

Explanatory Notes:

1. Voluntary Deletions

       a. Summary of Conclusions:

       We take no exceptions to MPR’s proposed voluntary deletions for FY 2001.

       b. Basis of Contractor’s Cost:

        The contractor’s voluntary deletions of xxxxxx and xxxxxx in the Overhead Burden and
G&A expense pools, respectively consist mainly of FAR 31.205 expressly unallowable costs for
idle facility rent costs, entertainment, officers life insurance, contributions and donations, legal,
travel and transportation. The contractor also made voluntary deletions for the costs of a non-
qualified pension plan, and sublease rental income and expenses.

       c. Audit Evaluation:

        We traced and verified the proposed voluntary deletions to the contractor’s books of
record. We reviewed the contractor’s financial statements, income tax return, Board of
Director’s minutes, and year-end adjusting journal entries. We reviewed the contractor’s
established accounting policies and procedures. We performed a review to determine that the
contractor included all directly associated unallowable costs with the voluntary deleted amounts.

2. Outside Services

       a. Summary of Conclusions:

       Questioned indirect outside services represent unallowable entertainment costs in accordance
with FAR 31.205-14 and are expressly unallowable and subject to a level one penalty.

       b. Basis of Contractor’s Cost:

       Represents entertainment costs charged to account # 4100-008-000 in the Overhead
burden expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the outside services incurred. We reviewed the sampled supporting
invoices and purchase orders in order to make a determination of allocability, allowability, and
reasonableness in accordance with the FAR cost principles.




                                                  6

                                  XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

       d. Contractor’s Reaction:

       The contractor’s representative xxxxxxxxxxxxxxx concurs with the questioned costs.

3. Travel & Subsistence

       a. Summary of Conclusions:

        Questioned indirect travel and subsistence costs of $5,754 in the Overhead burden expense pool
represent unallowable costs in accordance with FAR 31.205-14, FAR 31.205-3 and FAR 31.205-46(a)
(2) and are subject to a penalty. The applicability of penalty costs is summarized in the Penalties for
Unallowable Costs paragraph.

       b. Basis of Contractor’s Cost:

        Represents indirect travel and subsistence costs incurred by employees while on business
related travel charged to account # 4100-015-000 in the Overhead burden expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect travel and subsistence costs incurred. We reviewed sampled
supporting travel expense reports, travel requisitions, and receipts in order to make a
determination of allocability, allowability, and reasonableness in accordance with the FAR cost
principles. We reviewed the contractor’s established travel policies and procedures.

       d. Contractor’s Reaction:

       The contractor’s representative, xxxxxxxxxxxxxxx, concurs with the questioned costs.

4. Licenses and Fees

       a. Summary of Conclusions:

       Questioned costs represent several items of unallowable indirect licenses and fees costs of
$18,013 in accordance with FAR 31.205-20, FAR 31.201-4 and FAR 31.205-15(a). The applicability
of penalty costs is summarized in the Penalties for Unallowable Costs paragraph.

       b. Basis of Contractor’s Cost:

      Represents indirect licenses and fees incurred charged to account # 4100-016-000 in the
Overhead burden expense pool.




                                               7

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

        c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect licenses and fees incurred. We reviewed sampled supporting
invoices, bank debit advices, state income tax forms and schedules, adjusting journal entries,
general ledger edit reports, and e-mails in order to make a determination of allocability,
allowability, and reasonableness in accordance with the FAR cost principles.

        d. Contractor’s Reaction:

        The contractor’s representative, xxxxxxxxxxxxxxxx, concurs with the questioned costs.

5. Miscellaneous Expenses

        a. Summary of Conclusions:

        Questioned indirect miscellaneous expenses of $4,206 in the Overhead burden expense pool
represents $1,250 for costs related to social activities and costs of alcoholic beverages, $1,081 for
duplicate expenses, and $1,875 for reclassified food and beverage costs at contract meetings which
should have been charged direct to the contract, but were charged to the miscellaneous expense account.
The costs are questioned in accordance with FAR 31.205-14 and FAR 31.205-51. The applicability of
penalty costs is summarized in the Penalties for Unallowable Costs paragraph.

        b. Basis of Contractor’s Cost:

        Represents indirect miscellaneous expenses incurred charged to account # 4100-017-000
in the Overhead burden expense pool.

        c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect miscellaneous expenses incurred. We reviewed sampled
supporting invoices, purchase orders and requisitions, conference agendas, and vendor history
reports in order to make a determination of allocability, allowability, and reasonableness in
accordance with the FAR cost principles.

        d. Contractor’s Reaction:

      The contractor’s representative, xxxxxxxxxxxxx, concurs with the questioned costs and
upward adjustment to the G&A value added allocation base.




                                                8

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

6. Employee Morale Expenses

       a. Summary of Conclusions:

       Questioned indirect employee morale expenses of $3,177 represent unallowable costs in
accordance with FAR 31.205-14. The applicability of penalty costs is summarized in the Penalties for
Unallowable Costs paragraph.

       b. Basis of Contractor’s Cost:

      Represents catered food and beverage costs charged to account # 4100-020-000 in the
Overhead burden expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the employee morale expenses incurred. We reviewed the sampled
supporting invoices and purchase orders in order to make a determination of allocability,
allowability, and reasonableness in accordance with the FAR cost principles.

       d. Contractor’s Reaction:

       The contractor’s representative, xxxxxxxxxxxxxxxx, concurs with the questioned costs.

7. Travel

       a. Summary of Conclusions:

        Questioned indirect travel costs of $3,135 in the G&A expense pool represents unallowable
costs in accordance with FAR 31.205-14, 31.205-46(a) (2) and FAR 31.205-51. The applicability of
penalty costs is summarized in the Penalties for Unallowable Costs paragraph.

       b. Basis of Contractor’s Cost:

        Represents indirect travel expenses incurred by employees while on business related
travel charged to account # 5510-004-000 in the G&A expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect travel and subsistence costs incurred. We reviewed sampled
supporting travel expense reports, travel requisitions, and receipts in order to make a
determination of allocability, allowability, and reasonableness in accordance with the FAR cost



                                               9

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

principles. We reviewed the contractor’s established travel policies and procedures dated
January 6, 2001.

       d. Contractor’s Reaction:

       The contractor’s representative, xxxxxxxxxxxxxxxxxx, concurs with the questioned
       costs.

8. Other Expenses

       a. Summary of Conclusions:

       Questioned other costs of $19,411 in the G&A expense pool represents unallowable costs in
accordance with FAR 31.205-17 (b) and FAR 31.205-20 and also involves an upward adjustment to the
G&A base. The applicability of penalty costs is summarized in the Penalties for Unallowable Costs
paragraph.

       b. Basis of Contractor’s Cost:

        Represents indirect other expenses incurred charged to account # 5510-007-000 in the
G&A expense pool. Other expenses incurred consisted of finance and accounting expense, legal
and professional costs, insurance costs, director’s fees, postage charges, shipping & freight costs,
payroll service costs (ADP), printing costs, publication & subscription costs, bank charges, and
other miscellaneous other expenses.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect costs incurred. We reviewed sampled supporting
documentation in order to make a determination of allocability, allowability, and reasonableness
in accordance with the FAR cost principles.

       d. Contractor’s Reaction:

      The contractor’s representative, xxxxxxxxxxxxx concurs with the questioned costs and
upward adjustment to the G&A value added allocation base.

9. Bid & Proposal (B&P) Costs

       a. Summary of Conclusions:

       Questioned bid and proposal (B&P) costs of $2,417 in the G&A expense pool represents
a xxxxx rate adjustment between the Overhead Burden claimed rate of xxxxxx and the audit



                                                10

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

adjusted rate of xxxxxxxx applied to the claimed B&P direct labor and fringe benefits of the
professional staff xxxxxxxxxxxxxx. The applicability of penalty costs are summarized in the
Penalties for Unallowable Costs paragraph.

       b. Basis of Contractor’s Cost:

      The contractor computed its B&P expense allocations in accordance with the provisions
of FAR 31.205-18 and CAS 420.

       c. Audit Evaluation:

        We traced and verified the proposed B&P costs to the contractor’s books of record. We
verified for proper classification and compliance the B&P costs with the terms of government
contracts and any related agreements. We evaluated the contractor's B&P costs to make a
determination of allowability, allocability and reasonableness per FAR cost principles and CAS
420.

       d. Contractor’s Reaction:

       The contractor’s representative, xxxxxxxxxxxxxxx, concurs with the questioned costs.

10. Allocation to Affiliated Company

       a. Summary of Conclusions:

       The upward adjustment of xxxxxxxxxxx in the Overhead Burden expense pool and the
questioned cost of xxxxxxxxx in the G&A expense pool represent an adjustment to overhead
expenses related to the allocation to MPR’s sister subsidiary, the Center of Health Systems
Change (CHSC). We also adjusted the G&A value added allocation base to reflect the upward
adjustment of ($1,005) in overhead expense because the upward adjustment in overhead
expenses were from the MPR overhead rate and represent a portion of CHSC’s indirect burden.
The applicability of penalty costs are summarized in the Penalties for Unallowable Costs
paragraph.

       b. Basis of Contractor’s Cost:

      MPR provides administrative support for a sister subsidiary. CHSC is an affiliated
company and picks up a proportionate share of costs via a monthly journal which is reflected in
the MPR accounting system. MPR claimed costs exclude the direct and indirect allocations to
CHSC.




                                               11

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017



       c. Audit Evaluation:

       We traced and verified the proposed costs to the contractor’s books of record. We
evaluated the costs that are allocated to CHSC. We reviewed the agreement dated June 26, 2000
between MPR and CHSC. We evaluated and accepted the contractor’s revision of the allocated
CHSC overhead expenses which reflected the actual experience.

       d. Contractor’s Reaction:

      The contractor’s representative, xxxxxxxxxxxxx, concurs with the questioned costs and
upward adjustment to the G&A allocation base.




                                             12

                               XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

                                                                 EXHIBIT B

               SCHEDULE OF FLEXIBLY PRICED CONTRACTS
            AND SUBCONTRACTS FOR FY 1999, FY 2000, and FY 2001

                Department of Health and Human Services (DHHS)

PRIME CONTRACT
MPR Project No.      Prime Contract No.        Contract Type
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx
xxxx                 xxxxxxxxxxxxxxxxx             xxxxx



                                          13

                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

PRIME CONTRACT
MPR Project No.      Prime Contract No.        Contract Type
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx
xxxx                 xxxxxxxxxxxxxxxxx            xxxxx


                Department of Health and Human Services (DHHS)



                                          14

                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

PRIME CONTRACT
MPR Project No.       Prime Contract No.        Contract Type
xxxx                  xxxxxxxxxxxxxxxxx                xxxxx
xxxx                  xxxxxxxxxxxxxxxxx                xxxxx

SUBCONTRACTS
MPR Project No.     Prime Contract No.             Prime Contractor    Contract
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx                xxxxxxxxxxxxxxxx               xxxxxxxxxxxxxxxxxxx xxxxxxx


                  Department of Health and Human Services (DHHS)


                                           15

                            XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017



SUBCONTRACTS
MPR Project No.    Prime Contract No.           Prime Contractor   Contract Type
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx xxxxxxx


                              Department of Defense

SUBCONTRACTS
MPR Project No.    Prime Contract No.        Prime Contractor         Contract
Type
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx
xxxx               xxxxxxxxxxxxxxxx             xxxxxxxxxxxxxxxxxxx    xxxxxxx

                           Social Security Administration

PRIME CONTRACT
MPR Project No. Prime Contract No.           Contract Type
xxxxx           xxxxxxxxxxxxxxx                xxxxx




                                        16

                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I. ORGANIZATION

        Mathematica Policy Research Inc. was incorporated in the State of Delaware in 1976.
Sales totaled xxxxxxxxxxxx for the Year Ended December 31, 2001. Approximately xxxx of
Mathematica Policy Research Inc. sales are applicable to government flexibly priced contracts
for Fiscal Year Ending December 31, 2001. The remaining sales represent commercial and firm
fixed-price contracts. The majority of Mathematica Policy Research Inc. sales relate to the
providing of social science research and surveys. Mathematica Policy Research Inc. has
approximately xxxx employees.

II. ACCOUNTING SYSTEM

        Mathematica Policy Research Inc. maintains a Deltek job cost accounting system
wherein contracts are assigned individual project numbers that are used to accumulate associated
direct costs and ODC costs booked in multiple service centers. Indirect costs are identified with
and accumulated under indirect cost pools and multiple service centers. Indirect expenses are
recorded and billed to projects using predetermined rates less a reduction factor for estimated
unallowable costs. The predetermined indirect pool rates, which include the multiple service
center variances, are adjusted to actual allowable rates at final voucher submission following
contract completion. The contractor's accounting system is considered to be adequate for the
accumulation, reporting, and billing costs on government contracts. The following schedule
describes Mathematica Policy Research Inc. indirect cost pools and related allocation bases:

       Indirect Cost Pools and Allocation Bases:

       Indirect Cost Pool                             Allocation Base

       xxxxxxxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxx                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                               17

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

                                         DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:

         David Carrick, Auditor                             (732) 532-1539
         George B. Dowd, Supervisory Auditor                (732) 532-5692

Other contact regarding this audit report:

         Joseph F. Alter, Branch Manager                    (856) 354-7550


                                                                        FAX No.
         Southern New Jersey Branch Office                  (856) 354-7520


                                                                     E-mail Address
         Southern New Jersey Branch Office                  dcaa-fao6341@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.


AUDIT REPORT AUTHORIZED BY:



                                                 /signed/
                                                JOSEPH F. ALTER
                                                Branch Manager
                                                DCAA Southern New Jersey Branch Office




                                               18

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

                                                            E-mail Address
Department of Health and Human Services              chagepanos@cms.hhs.gov
Centers for Medicare & Medicaid Services             srehe@oig.hhs.gov
ATTN: Christopher Hagepanos, M.S. C2-21-15
7500 Security Blvd.
Baltimore, MD 21244

Social Security Administration                       Robert.austin@ssa.gov
Office of Acquisition and Grants                     Suzanne.valett@ssa.gov
ATTN: Robert Austin, Contracting Officer
1710 Gwynn Oak Avenue
Baltimore, MD 21207

Nashville Branch Office                              dcaa-fao1211@dcaa.mil
1321 Murfreesboro Pike, Suite 302
Nashville, TN 37217

North Carolina Branch Office                         dcaa-fao1281@dcaa.mil
415 North Edgeworth Street, Suite A
Greensboro, NC 27401

Boston Branch Office                                 dcaa-fao2171@dcaa.mil
101 Merrimac Street, Suite 820A
Boston, MA 02114

Long Island Branch Office-                           dcaa-fao2201@dcaa.mil
U. S. Courthouse & Federal Bldg.
300 Federal Plaza
Central Islip, NY 11722

New York Branch Office                               dcaa-fao2211@dcaa.mil
201 Varick Street, Room 615
New York, NY 10014

Branch Manager, DCAA                                 dcaa-fao3541@dcaa.mil
Minneapolis Branch Office
U.S. Courthouse
300 S. Fourth Street, Ste 519
Minneapolis, MN 55415-1329



                                           19

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

DISTRIBUTION (Continued)
                                                              E-mail Address
Seattle Branch Office                                 dcaa-fao4261@dcaa.mil
14240 Interurban Avenue, South
Suite 156
Seattle, WA 98168

Baltimore Branch Office                               dcaa-fao6141@dcaa.mil
8441 Belair Road, Suite 102
Baltimore, MD 21236

Silver Spring Branch Office                           dcaa-fao6221@dcaa.mil
20251 Century Blvd., Suite 320
Germantown, MD 20874

Branch Manager, DCAA                                  dcaa-fao6311@dcaa.mil
Columbia Branch Office
One Mall North, Suite 200
10025 Governor Warfield Parkway
Columbia, MD 21044

Rosslyn Branch Office                                 dcaa-fao6331@dcaa.mil
6800 Versar Center
Suite 329 3RD Floor
Springfield, VA 2151

Southern New Jersey Branch Office                     dcaa-fao6341@dcaa.mil
Woodcrest Pavilion
10 Melrose Avenue, Suite 200
Cherry Hill, NJ 08003

Pennsylvania Branch Office                            dcaa-fao6701@dcaa.mil
700 American Avenue, Suite 100
King of Prussia, PA 19406

Mathematica Policy Research, Inc.                     (Copy furnished thru ACO)
600 Alexander Park
Princeton, NJ 08543-2393




                                         20

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017

xxxxxxxxxxxxxxxxxx

1. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx
2. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx
3. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx
4. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx

5. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx
6. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx
7. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxx

8. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx
9. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx
10. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx
11. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx
12. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx
13. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx

14. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx
15. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxx




                                      21

                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                                      22

                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017            APPENDIX 2




                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017




                          XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2001A10100017   APPENDIX 3
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6341– 2002A10100015


                                                                  May 20, 2004

PREPARED FOR: Department of Health and Human Services
              Centers for Medicare & Medicaid Services
              ATTN: Marie E. Dodge, M.S. C2-21-15
              7500 Security Blvd
              Baltimore, MD 21244

PREPARED BY:      DCAA Southern New Jersey Branch Office
                  Woodcrest Pavilion
                  10 Melrose Place, Suite 200
                  Cherry Hill, NJ 08003
                      Telephone No.       856-354-7550
                      FAX No.             856-354-7520
                      E-mail Address      dcaa-fao6341@dcaa.mil

SUBJECT:          Audit of Fiscal Year 2002 Incurred Costs

CONTRACTOR:       Mathematica Policy Research, Inc. (5D318)
                  600 Alexander Park
                  Princeton, NJ 08543-2393

REPORT RELEASE RESTRICTIONS: See Page 16

                                                                           Page
CONTENTS:         Subject of Audit                                           1
                  Scope of Audit                                             1
                  Results of Audit                                          3
                  Contractor Organization and Systems                       12
                  DCAA Personnel and Report Authorization                   13
                  Audit Report Distribution and Restrictions                14
                  Certificate of Final Indirect Costs                    Appendix 1
                  Indirect Cost Rate Agreement Letter                    Appendix 2
                  Contractor’s Objection to Release Statement            Appendix 3




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

                                     SUBJECT OF AUDIT

        We examined the Mathematica Policy Research, Inc.’s (MPR) June 25, 2003 certified final
indirect cost rate proposal and related books and records for reimbursement of the fiscal year ended
31 December 2002 incurred costs and T&M amounts. The purpose of the examination was to
determine the allowability of the direct and indirect costs and T&M amounts for the fiscal year of
January 1, 2002 through December 31, 2002 for the Department of Health and Human Resources
(DHHS), Department of Defense (DOD), and Social Security Administration (SSA) contracts and
subcontracts. The proposed rates for FY 2002 apply primarily to the flexibly priced contracts
and subcontracts listed in Exhibit B. A copy of Mathematica Policy Research's Certificate of
Final Indirect Costs dated June 25, 2003 is included as Appendix 1 to this report.
        .
        The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.


                                       SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records reviewed;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist assistance.

       We evaluated the proposal using the cost principles contained in the:

       •    Federal Acquisition Regulation (FAR), and
       •    Defense Federal Acquisition Regulation (DFARS)
       •    Cost Accounting Standards

       Mathematica Policy Research, Inc’s accounting system is considered adequate for the
accumulation, reporting, and billing costs on government contracts as described in the
Contractor’s Organization and Systems section of this report. Our audit scope reflects the risk of
unallowable costs being included in the proposal and includes expanded testing to provide a
reasonable basis for our opinion.
       The concurrent verification of both labor and materials were omitted in this examination.



                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015



QUALIFICATIONS

1.      Due to the Department of Agriculture, Department of Labor and Department of
Education, Department of Justice, and National Science Foundation (NSF)’s inability to fund
this audit, our review of direct costs was limited to the costs related to the DHHS, DOD, and
SSA for FY 2002 auditable prime and subcontract effort. Our audit is qualified to the extent that
the audit of direct and indirect costs for the reimbursable departments mentioned above that did
not fund their share of the audit. Therefore, we express no opinion on the allowability of the
recorded cost related to flexibly priced contracts and subcontracts for the Agency’s identified
above. The information contained in the report is not acceptable as a basis for determining
allowability of the unaudited direct costs for contract closeout purposes that pertain to
Agriculture, Labor, Education, Justice, and NSF.

2.      Due to the DHHS’s inability to fund required assist audits of auditable subcontracts, our
audit of these direct costs under DHHS flexibly priced prime contracts for FY 2002 in the
amount of $1,455,794 is qualified to the extent that the audit of the auditable subcontract direct
and indirect costs billed to MPR was limited to the verification of the recorded direct costs on
the contractor’s books of record. Therefore, we express no opinion on the allowability of these
recorded direct costs related to auditable subcontracts under the auditable DHHS flexibly priced
prime contracts for FY 2002. The information contained in the report is not acceptable as a basis
for determining allowability and allocability of the unaudited direct costs for contract closeout
purposes that pertain to subcontract direct costs under auditable DHHS flexibly priced prime
contracts for FY 2002.

                                    RESULTS OF AUDIT

Indirect Rates. In our opinion, the contractor’s proposed indirect rates are based on allowable
cost and are therefore acceptable as adjusted by our examination. The examination results and
recommendations are presented below. The enclosed Indirect Cost Rate Agreement documents
the contractor's concurrence with our findings and recommendations.

Direct Costs. In our opinion, except for Qualification No. 2 as noted above, claimed direct costs
and T&M amounts are also allowable and are provisionally approved pending final acceptance.
Final acceptance of amounts proposed under government contracts does not take place until
performance under the contract is completed and accepted by the cognizant authorities and the
audit responsibilities have been completed.

 Penalties for Unallowable Costs. The examination found expressly unallowable costs subject to
the penalties of $3,737 in the Overhead Burden expense pool. Refer to Notes 2 and 4 of Exhibit
A for details. Of these amounts, $958 in the Overhead Burden expense pool were allocable to the
contracts specified in provided in FAR 42.709(b). Affected contracts are identified in Exhibit B,



                                                2

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

page 8. The amounts are recommended for penalties, but less than the $10,000 waiver threshold
discussed in FAR 42-709-5. Additional information regarding the above penalties will be
provided upon request. Our recommendations concerning the interest to be recovered on
unallowable costs paid will be furnished when we have received your determination on penalties
to be assessed.


                            SUMMARY OF AUDIT RESULTS
                            Fiscal Year Ended December 31, 2002

                                        Proposed                            Question
    Indirect                            Expense                             Expense
    Category              Base            Pool         Rate       Base       Pool       Rate     Ref.
  XXXXXXXX          A   XXXXXXX        XXXXXXX        XXXXX      XXXXX      XXXXX         -        -
  XXXXXXXX          B   XXXXXXX        XXXXXXX        XXXXX      XXXXX      XXXXX         -        -
  XXXXXXXX          C   XXXXXXX        XXXXXXX        XXXXX      XXXXX      XXXXX       .02%     Ex. A
  XXXXXXXX          D   XXXXXXX        XXXXXXX        XXXXX      XXXXX      XXXXX          -       -
  XXXXXXXX          E   XXXXXXX        XXXXXXX        XXXXX      XXXXX      XXXXX         -        -

Description of Allocation Bases:
       a. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       b. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       c. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       d. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       e. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

               GOVERNMENT PARTICIPATION IN ALLOCATION BASES
                      Fiscal Year Ended December 31, 2002

                              Contract Type In Allocation Base
                            Government          Government
                            Flexibly Priced     Firm Fixed Price and
     Category               Contracts/Subs      Commercial Work      Total
XXXXXXXXXXXXXXX                XXXXXXX                XXXXXXX        XXXXX
XXXXXXXXXXXXXXX                XXXXXXX                XXXXXXX        XXXXX
XXXXXXXXXXXXXXX                XXXXXXX                XXXXXXX        XXXXX
XXXXXXXXXXXXXXX                XXXXXXX                XXXXXXX        XXXXX
XXXXXXXXXXXXXXX                XXXXXXX                XXXXXXX        XXXXX




                                              3

                               XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

Cumulative Allowable Cost Worksheet. We have included a copy of the cumulative allowable
costs for the flexibly priced DHHS contracts, DOD subcontract delivery orders, and the SSA
contracts as an attachment to the Indirect Cost Rate Agreement Letter for FY 2002 (Appendix 2).
It should be noted that we have questioned $24,134 and $56,833 for costs outside the period of
performance on contracts and subcontracts, respectively and $745,444 and $7,336 for costs in
excess of ceiling amounts on contracts and subcontracts, respectively. This information should
assist your monitoring the status of contract awaiting closeout.

       We provided and discussed the audit results with XXXXXXXXXXX, the contractor’s
representative, on April 5, 2004, who concurred with our findings. The enclosed Indirect Cost
Rate Agreement for FY 2002 (Appendix 2) documents the contractor’s concurrence with our
findings and recommendations.




                                               4

                               XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

               SUMMARY OF AUDIT RESULTS OF OVERHEAD COSTS
                       Fiscal Year Ended December 31, 2002
                                                                                 EXHIBIT A



                                                    Overhead           Ref.
      Contractor's Indirect Expenses:
      Total Indirect Expenses                     XXXXXXXXX
      Voluntary Deletions                         XXXXXXXXX          Note 1
      Claimed Costs                       (A)     XXXXXXXXX


      Results of Audit Review
      Questioned Expenses:
      Travel & Subsistence                        XXXXXXXXX          Note 2
      Miscellaneous Expenses                      XXXXXXXXX          Note 3
      Employee Morale Expenses                    XXXXXXXXX          Note 4

      Total Questioned Expenses           (B)     XXXXXXXXX
      Adjusted Expenses (A-B)             (C)     XXXXXXXXX


      Allocation Bases:
      Claimed Bases                       (D)     XXXXXXXXX
      Adjustments to Bases:
      Audit Adjusted Bases                (E)     XXXXXXXXX


      Indirect Expense Rates
      Claimed Rates                      (A/D)    XXXXXXXXX
      Audit Adjusted Rates               (C/E)    XXXXXXXXX
      Questioned Rates                            XXXXXXXXX



Explanatory Notes:

 1. Voluntary Deletions

   a. Summary of Conclusions:

      We take no exceptions to MPR’s proposed voluntary deletions for FY 2002.


   b. Basis of Contractor’s Cost:



                                            5

                                  XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015



      The contractor’s voluntary deletions of XXXXXX in the Overhead Burden expense pool
   consist mainly of FAR 31.205 expressly unallowable costs for entertainment, travel and
   subsistence.

   c. Audit Evaluation:

       We traced and verified the proposed voluntary deletions to the contractor’s books of
   record. We reviewed the contractor’s financial statements, income tax return, Board of
   Director’s minutes, and year-end adjusting journal entries. We reviewed the contractor’s
   established accounting policies and procedures. We performed a review to determine that the
   contractor included all directly associated unallowable costs with the voluntary deleted
   amounts.

2. Travel & Subsistence

    a. Summary of Conclusions:

       Questioned indirect travel and subsistence costs of $4,382 in the Overhead burden expense pool
   represent unallowable costs in accordance with FAR 31.205-14, FAR 31.205-46(a) (3)(ii) through
   (iv) and (7)(ii). Of the total questioned, $3,053 are expressly unallowable costs and subject to a
   level one penalty.

    b. Basis of Contractor’s Cost:

       Represents indirect travel and subsistence costs incurred by employees while on business
   related travel charged to account # 4100-015-000 in the Overhead burden expense pool.

    c. Audit Evaluation:

       We traced and verified the proposed costs to the contractor’s books of record. We
    selected a sample of the indirect travel and subsistence costs incurred. We reviewed
    sampled supporting travel expense reports, travel requisitions, and receipts in order to make
    a determination of allocability, allowability, and reasonableness in accordance with the FAR
    cost principles. We reviewed the contractor’s established travel policies and procedures.




                                               6

                               XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015



3. Miscellaneous Expenses

   a. Summary of Conclusions:

       Questioned indirect miscellaneous expenses of $518 in the Overhead burden expense pool
   represents unallowable costs in accordance with FAR 31.205-46(a)(7)(ii). Theses questioned costs
   are not subject to penalty.

   b. Basis of Contractor’s Cost:

      Represents indirect miscellaneous expenses incurred charged to account # 4100-017-000 in the
   Overhead burden expense pool.

   c. Audit Evaluation:

       We traced and verified the proposed costs to the contractor’s books of record. We
   selected a sample of the indirect miscellaneous expenses incurred. We reviewed sampled
   supporting invoices, purchase orders and requisitions, conference agendas, and vendor
   history reports in order to make a determination of allocability, allowability, and
   reasonableness in accordance with the FAR cost principles.

4. Employee Morale Expenses

       a. Summary of Conclusions:

       Questioned indirect employee morale expenses of $684 represent unallowable costs in
   accordance with FAR 31.205-14. These costs are expressly unallowable costs and are subject to a
   level-one penalty.

       b. Basis of Contractor’s Cost:

       Represents catered food and supplies charged to account #’s 4100-00-00 and 4100-020-000 in
   the Overhead burden expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the employee morale expenses incurred. We reviewed the sampled
supporting invoices and purchase orders in order to make a determination of allocability,
allowability, and reasonableness in accordance with the FAR cost principles.




                                               7

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

                                                                 Exhibit B
                SCHEDULE OF FLEXIBLY PRICED CONTRACTS
                     AND SUBCONTRACTS IN FY 2002

                Department of Health and Human Services (DHHS)

PRIME CONTRACT
MPR Project No.     Prime Contract No.     Contract Type
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
XXX                XXXXXXXXXXXX               XXXX
                Department of Health and Human Services (DHHS)



                                       8

                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015



PRIME CONTRACT
MPR Project No.     Prime Contract No.       Contract Type
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX
XXX                 XXXXXXXXXXXX                XXXX




                                         9

                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

                  Department of Health and Human Services (DHHS)

SUBCONTRACTS
MPR Project No.     Prime Contract No.         Prime Contractor    Contract Type
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX
XXX                 XXXXXXXXXXXXX             XXXXXXXXXX           XXXX

                  Department of Health and Human Services (DHHS)



                                         10

                            XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015



SUBCONTRACTS
MPR Project No.    Prime Contract No.           Prime Contractor   Contract Type
XXX                XXXXXXXXXXXXX               XXXXXXXXXX          XXXX

                              Department of Defense

SUBCONTRACTS
MPR Project No.    Prime Contract No.        Prime Contractor      Contract Type
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX
XXX                XXXXXXXXXXXXX                XXXXXXXXXX         XXXX


                           Social Security Administration

PRIME CONTRACT
MPR Project No. Prime Contract No.            Contract Type
XXXXX           XXXXXXXXXXX                       XXXX

XXXXX              XXXXXXXXXXX                    XXXX




                                        11

                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I. ORGANIZATION

        Mathematica Policy Research Inc. was incorporated in the State of Delaware in 1976.
Sales totaled XXXXX for the Year Ended December 31, 2002. Approximately XXXXXX of
Mathematica Policy Research Inc. sales are applicable to government flexibly priced contracts
for Fiscal Year Ending December 31, 2002. The remaining sales represent commercial and firm
fixed-price contracts. The majority of Mathematica Policy Research Inc. sales relate to the
providing of social science research and surveys. Mathematica Policy Research Inc. has
approximately employees.

II. ACCOUNTING SYSTEM

        Mathematica Policy Research Inc. maintains a Deltek job cost accounting system
wherein contracts are assigned individual project numbers that are used to accumulate associated
direct costs and ODC costs booked in multiple service centers. Indirect costs are identified with
and accumulated under indirect cost pools and multiple service centers. Indirect expenses are
recorded and billed to projects using predetermined rates less a reduction factor for estimated
unallowable costs. The predetermined indirect pool rates, which include the multiple service
center variances, are adjusted to actual allowable rates at final voucher submission following
contract completion. The contractor's accounting system is considered to be adequate for the
accumulation, reporting, and billing costs on government contracts. The following schedule
describes Mathematica Policy Research Inc. indirect cost pools and related allocation bases:

       Indirect Cost Pools and Allocation Bases:

       Indirect Cost Pool                             Allocation Base

       XXXXXXXXXXXX                         XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXX                         XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXX                         XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXX                         XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXX                         XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXX                         XXXXXXXXXXXXXXXXXXXXXXXXXX




                                               12

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

                                         DCAA PERSONNEL

                                                             Telephone No.
Primary contacts regarding this audit:

         David Carrick, Auditor                              609-520-0733
         George B. Dowd, Supervisory Auditor                 732-532-5692

Other contact regarding this audit report:

         Joseph F. Alter, Branch Manager                     856-354-7550


                                                             FAX No.
         Southern New Jersey Branch Office                   856-354-7520


                                                             E-mail Address
         Southern New Jersey Branch Office                   dcaa-fao6341@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil/.


AUDIT REPORT AUTHORIZED BY:


                                                          /signed/
                                                    JOSEPH F. ALTER
                                                    Branch Manager
                                                    DCAA Southern New Jersey Branch Office




                                               13

                                 XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

                                                    E-mail Address
Department of Health and Human Services             MDodge@cms.hhs.gov
Centers for Medicare & Medicaid Services            srehe@oig.hhs.gov
ATTN: Marie E. Dodge, M.S. C2-21-15                 Rb17i@nih.gov
7500 Security Blvd
Baltimore, MD 21244

Social Security Administration                      Fred.Nordhoff@ssa.gov
Office of Acquisition and Grants
ATTN: Fred Nordhoff
6401 Security Boulevard
Room 4L1 Operations Bldg
Baltimore, MD 21235

Social Security Administration                      Bob.L.Wilson@ssa.gov
Office of Acquisition and Grants
ATTN: Bob Wilson
1710 Gwynn Oak Avenue
Baltimore, MD 21207-5279

DCAA, Nashville Branch Office                       dcaa-fao1211@dcaa.mil
1321 Murfreesboro Pike, Suite 302
Nashville, TN 37217

DCAA, Northern New England Branch Office            dcaa-fao2161@dcaa.mil
110 Hartwell Ave. Suite 320
Lexington, MA02421

DCAA, Boston Branch Office                          dcaa-fao2171@dcaa.mil
101 Merrimac Street, Suite 820A
Boston, MA 02114

DCAA, Long Island Branch Office-                    dcaa-fao2201@dcaa.mil
U. S. Courthouse & Federal Bldg.
300 Federal Plaza
Central Islip, NY 11722




                                           14

                               XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015



DCAA, New York Branch Office                         dcaa-fao2211@dcaa.mil
201 Varick Street, Room 615
New York, NY 10014

Branch Manager, DCAA                                 dcaa-fao3541@dcaa.mil
Minneapolis Branch Office
U.S. Courthouse
300 S. Fourth Street, Ste 519
Minneapolis, MN 55415-1329

DCAA Baltimore Branch Office                         dcaa-fao6141@dcaa.mil
8441 Belair Road, Suite 102
Baltimore, MD 21236

DCAA Silver Spring Branch Office                     dcaa-fao6221@dcaa.mil
20251 Century Blvd., Suite 320
Germantown, MD 20874

DCAA Columbia Branch Office                          dcaa-fao6311@dcaa.mil
One Mall North, Suite 200
10025 Governor Warfield Parkway
Columbia, MD 21044

DCAA Rosslyn Branch Office                           dcaa-fao6331@dcaa.mil
6800 Versar Center
Suite 329 3RD Floor
Springfield, VA 2151

DCAA Southern New Jersey Branch Office               dcaa-fao6341@dcaa.mil
Woodcrest Pavilion
10 Melrose Avenue, Suite 200
Cherry Hill, NJ 08003

DCAA Pennsylvania Branch Office                      dcaa-fao6701@dcaa.mil
700 American Avenue, Suite 100
King of Prussia, PA 19406

Mathematica Policy Research, Inc.                    (Copy furnished thru ACO)
600 Alexander Park
Princeton, NJ 08543-2393




                                         15

                                XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015




XXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                      16

                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 1




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 2




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 2




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 2




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 2




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 2




                           XXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2002A10100015             Appendix 3




                           XXXXXXXXXXXXXXXXXX
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6341–2003A10100019


                                                                       March 21, 2005

PREPARED FOR: Department of Health and Human Services
              Centers for Medicare & Medicaid Services
              ATTN: Marie E. Dodge, M.S. C2-21-15
              7500 Security Blvd.
              Baltimore, MD 21244

PREPARED BY:      DCAA Southern New Jersey Branch Office
                  Woodcrest Pavilion
                  10 Melrose Avenue, Suite 200
                  Cherry Hill, NJ 08003-3647
                      Telephone No.      (856) 354-7550
                      FAX No.            (856) 354-7520
                      E-mail Address     dcaa-fao6341@dcaa.mil

SUBJECT:          Audit of Calendar Year 2003 Incurred Costs and T&M Billing Amounts

CONTRACTOR:       Mathematica Policy Research, Inc. (5D318)
                  600 Alexander Park
                  Princeton, NJ 08543-2393

REPORT RELEASE RESTRICTIONS: See Page 15

                                                                                  Page
CONTENTS:         Subject of Audit                                                  2
                  Scope of Audit                                                    2
                  Results of Audit                                                  2
                  Contractor Organization and Systems                              12
                  DCAA Personnel and Report Authorization                          13
                  Audit Report Distribution and Restrictions                       14
                  Certificate of Final Indirect Costs                           Appendix 1
                  Indirect Cost Rate Agreement Letter                           Appendix 2
                  Contractor’s Objection to Release Statement                   Appendix 3




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

                                     SUBJECT OF AUDIT

        We examined the Mathematica Policy Research, Inc.’s (MPR) June 10, 2004 certified
final indirect cost rate proposal and related books and records for reimbursement of the Fiscal
Year Ended December 31, 2003 incurred costs and T&M amounts. The purpose of the
examination was to determine the allowability of the direct and indirect costs and T&M amounts
and establish audit determined indirect cost rates for the Fiscal Year January 1, 2003 through
December 31, 2003 for the Department of Health and Human Resources (DHHS) and Social
Security Administration (SSA) contracts and subcontracts. The proposed rates for FY 2003
apply primarily to the flexibly priced contracts and subcontracts listed in Exhibit B. A copy of
the MPR Certificate of Final Indirect Costs dated June 10, 2004 is included as Appendix 1 to this
report.

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.

                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records examined are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    sampled billings for T&M orders to determine usage of proper contracted labor
            category rates;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist assistance

       We evaluated the proposal using the applicable requirements contained in the:

       •    Federal Acquisition Regulation (FAR);
       •    Defense FAR Supplement; and
       •    Cost Accounting Standards.




                                XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019                                          APPENDIX 1



        For FY 2003, we consider the Mathematica Policy Research (MPR), Inc. accounting
system to be adequate for the accumulation, reporting, and billing costs on government contracts,
as described in the Contractor Organization and Systems section of this report. Our assessment
of control risk reflects that we have not specifically tested the effectiveness of MPR’s systems
and related internal controls. The scope of our examination reflects our assessment of control
risk and includes tests of compliance with laws and regulations that we believe provide a
reasonable basis for our opinion.

       The concurrent verification of materials and labor were omitted in this examination.

QUALIFICATIONS

1. Due to the Department of Agriculture, Department of Labor and Department of Education,
Department of Justice, and National Science Foundation (NSF)’s inability to fund this audit, our
review of direct costs was limited to the costs related to the DHHS and SSA for FY 2003
auditable prime and subcontract effort. Our audit is qualified to the extent that the audit of direct
and indirect costs for the reimbursable departments mentioned above that did not fund their share
of the audit. Therefore, we express no opinion on the allowability of the recorded cost related to
flexibly priced contracts and subcontracts for the Agencies identified above. The information
contained in the report is not acceptable as a basis for determining allowability of the unaudited
direct costs for contract closeout purposes that pertain to Agriculture, Labor, Education, Justice,
and NSF.

2. Due to the DHHS inability to fund required assist audits of auditable subcontracts, our audit
of these direct costs under DHHS flexibly priced prime contracts and T&M subcontracts for
FY 2003 in the amount of XXXXXXXX is qualified to the extent that the audit of the auditable
subcontract direct and indirect costs billed to MPR was limited to the verification of the recorded
direct costs on the contractor’s books of record. Therefore, we express no opinion on the
allowability of these recorded direct costs related to auditable subcontracts under the auditable
DHHS flexibly priced prime contracts and T&M subcontracts for FY 2003. The information
contained in the report is not acceptable as a basis for determining allowability and allocability
of the unaudited direct costs for contract closeout purposes that pertain to subcontract direct
costs under auditable DHHS flexibly priced prime contracts and T&M subcontracts for FY 2003.

                                      RESULTS OF AUDIT

Indirect Rates. In our opinion, the contractor’s proposed indirect rates are acceptable as adjusted
by our examination. The examination results and recommendations are presented below. The
enclosed Indirect Cost Rate Agreement (Appendix 2) documents the contractor's concurrence
with our findings and recommendations.




                                XXXXXXXXXXXXXXXXXXX
   Audit Report No. 6341-2003A10100019

   Direct Costs. In our opinion, except for Qualification 2 as noted above, claimed direct costs are
   acceptable and are provisionally approved, pending final acceptance. Final acceptance of
   amounts proposed under government contracts does not take place until performance under the
   contract is completed and accepted by the cognizant authorities and the audit responsibilities
   have been completed.

   Penalties for Unallowable Costs. The examination found expressly unallowable costs subject to
   the penalties of $3,328 in the Overhead Burden expense pool. Refer to Notes 2 and 3 of Exhibit
   A for details. Of these amounts, $1,027 in the Overhead Burden expense pool were allocable to
   the contracts specified in provided in FAR 42.709(b). Affected contracts are identified in
   Exhibit B. The amounts are recommended for penalties, but less than the $10,000 waiver
   threshold discussed in FAR 42-709-5. Additional information regarding the above penalties will
   be provided upon request. Our recommendations concerning the interest to be recovered on
   unallowable costs paid will be furnished when we have received your determination on penalties
   to be assessed.


                                SUMMARY OF AUDIT RESULTS
                                Fiscal Year Ended December 31, 2003

                                       Proposed                            Question
  Indirect                             Expense                             Expense
  Category             Base              Pool           Rate     Base        Pool       Rate      Ref.
XXXXXXXX         a   XXXXXXX          XXXXXXX          XXXXX    XXXXX         $0         -         -
XXXXXXXX         b   XXXXXXX          XXXXXXX          XXXXX    XXXXX         $0         -         -
XXXXXXXX         c   XXXXXXX          XXXXXXX          XXXXX    XXXXX       $7,393      XXX      Exh. A
XXXXXXXX         d   XXXXXXX          XXXXXXX          XXXXX    XXXXX         $0          -        -
XXXXXXXX         e   XXXXXXX          XXXXXXX          XXXXX    XXXXX         $0         -         -

   Description of Allocation Bases:

       a. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       b. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       c. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       d. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       e. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                                   3

                                  XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



                GOVERNMENT PARTICIPATION IN ALLOCATION BASES
                       Fiscal Year Ended December 31, 2003

                               Contract Type In Allocation Base
                             Government          Government
                             Flexibly Priced     Firm Fixed Price and
     Category                Contracts/Subs      Commercial Work           Total
XXXXXXXXXXXXXXX                 XXXXXXX                XXXXXXX             XXXXX
XXXXXXXXXXXXXXX                 XXXXXXX                XXXXXXX             XXXXX
XXXXXXXXXXXXXXX                 XXXXXXX                XXXXXXX             XXXXX
XXXXXXXXXXXXXXX                 XXXXXXX                XXXXXXX             XXXXX
XXXXXXXXXXXXXXX                 XXXXXXX                XXXXXXX             XXXXX

Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit B, represent costs that are considered allowable under the
listed contracts and subcontracts and are, therefore, reimbursable. It should be noted that we
have questioned $4,034 and $3,127 for costs outside the period of performance on contracts and
subcontracts, respectively and $398,238 and $107,011 for costs in excess of ceiling amounts on
contracts and subcontracts, respectively. For those contracts and subcontracts identified as
“Ready to Close,” the information on the CACWS should be used to close out contracts.

We provided and discussed the audit results with XXXXXXX, Contractor Representative, on
February 18, 2005, who concurred with our findings. The enclosed Indirect Cost Rate
Agreement for FY 2003 (Appendix 2) documents the contractor’s concurrence with our findings
and recommendations.




                                                4

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



                                                                             EXHIBIT A

               SUMMARY OF AUDIT RESULTS OF OVERHEAD COSTS
                       Fiscal Year Ended December 31, 2003

                                                            Overhead              Ref.
             Contractor's Indirect Expenses:
             Total Indirect Expenses                       XXXXXXXXX
             Voluntary Deletions                           XXXXXXXXX          Note 1
             Claimed Costs                          (A)    XXXXXXXXX

             Results of Audit Review
             Questioned Expenses:
             Travel & Subsistence                          XXXXXXXXX          Note 2
             Miscellaneous Expenses                        XXXXXXXXX          Note 3
             Total Questioned Expenses              (B)    XXXXXXXXX
             Adjusted Expenses (A-B)                (C)    XXXXXXXXX


             Allocation Bases:
             Claimed Bases                          (D)    XXXXXXXXX
             Adjustments to Bases:
             Audit Adjusted Bases                   (E)    XXXXXXXXX


             Indirect Expense Rates
             Claimed Rates                         (A/D)   XXXXXXXXX
             Audit Adjusted Rates                  (C/E)   XXXXXXXXX
             Questioned Rates                              XXXXXXXXX

EXPLANATORY NOTES:

1. Voluntary Deletions

       a. Summary of Conclusions:

       We take no exceptions to MPR’s proposed voluntary deletions for FY 2003.

       b. Basis of Contractor’s Cost:

        The contractor’s voluntary deletions of XXXXXX in the Overhead Burden expense pool
consist mainly of FAR 31.205 expressly unallowable costs for entertainment, travel and
subsistence.




                                               5

                                XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

       c. Audit Evaluation:

        We traced and verified the proposed voluntary deletions to the contractor’s books of
record. We reviewed the contractor’s financial statements, income tax return, Board of
Director’s minutes, and year-end adjusting journal entries. We reviewed the contractor’s
established accounting policies and procedures. We performed a review to determine that the
contractor included all directly associated unallowable costs with the voluntary deleted amounts.

2. Travel & Subsistence

       a. Summary of Conclusions:

       Questioned indirect travel and subsistence costs of $6,311 in the Overhead burden expense pool
represent unallowable costs in accordance with FAR 31.205-14, FAR 31.205-46(a)(2)(i) through (iii),
and FAR 31.205-46(a) (3)(ii) through (iv). Of the total questioned, $2,246 is expressly unallowable
costs pursuant to FAR 31.205-14 and subject to a level one penalty.

       b. Basis of Contractor’s Cost:

        Represents indirect travel and subsistence costs incurred by employees while on business
related travel charged to account # 4100-015-000 in the Overhead burden expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect travel and subsistence costs incurred. We reviewed sampled
supporting travel expense reports, travel requisitions, and receipts in order to make a
determination of allocability, allowability, and reasonableness in accordance with the FAR cost
principles. We reviewed the contractor’s established travel policies and procedures.

3. Miscellaneous Expenses

       a. Summary of Conclusions:

       Questioned indirect miscellaneous expenses of $1,082 in the Overhead burden expense pool
represent unallowable costs in accordance with FAR 31.205-14. These questioned costs are expressly
unallowable costs and subject to a level one penalty.

       b. Basis of Contractor’s Cost:

      Represents indirect miscellaneous expenses incurred charged to account # 4100-017-000 in the
Overhead burden expense pool.




                                                6

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect miscellaneous expenses incurred. We reviewed sampled
supporting invoices, purchase orders and requisitions, conference agendas, and vendor history
reports in order to make a determination of allocability, allowability, and reasonableness in
accordance with the FAR cost principles.




                                               7

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



                                                                 EXHIBIT B

                SCHEDULE OF FLEXIBLY PRICED CONTRACTS
                     AND SUBCONTRACTS IN FY 2003

                Department of Health and Human Services (DHHS)

PRIME CONTRACT
MPR Project No.      Prime Contract No.       Contract Type
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX
XXXX                 XXXXXXXXXXXX                XXXX


                                          8

                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



                Department of Health and Human Services (DHHS)

PRIME CONTRACT
MPR Project No.     Prime Contract No.       Contract Type
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX
XXXX                  XXXXXXXXXXXX              XXXX




                                         9

                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



                  Department of Health and Human Services (DHHS)

SUBCONTRACTS
MPR Project No.    Prime Contract No.          Prime Contractor    Contract Type
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX
XXXX               XXXXXXXXXXXX                XXXXXXXXXXX             XXXX




                                        10

                           XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



                  Department of Health and Human Services (DHHS)

SUBCONTRACTS
MPR Project No.    Prime Contract No.        Prime Contractor      Contract Type
XXXX               XXXXXXXXXXXX                 XXXXXXXXXXX            XXXX
XXXX               XXXXXXXXXXXX                 XXXXXXXXXXX            XXXX
XXXX               XXXXXXXXXXXX                 XXXXXXXXXXX            XXXX

                           Social Security Administration

PRIME CONTRACT
MPR Project No.    Prime Contract No.        Contract Type
XXXX               XXXXXXXXXXXXX                XXXX
XXXX               XXXXXXXXXXXXX                XXXX
XXXX               XXXXXXXXXXXXX                XXXX

XXXX               XXXXXXXXXXXXX                XXXX




                                        11

                           XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

                    CONTRACTOR ORGANIZATION AND SYSTEMS

1. Organization

        Mathematica Policy Research, Inc. was incorporated in the State of Delaware in 1976.
Sales totaled XXXXXX for the Year Ended December 31, 2003. Approximately XXXXX of
Mathematica Policy Research Inc. sales are applicable to government flexibly priced contracts
and subcontracts for Fiscal Year Ending December 31, 2003. The remaining sales represent
commercial and firm fixed-price contracts. Mathematica Policy Research, Inc. sales relate to the
providing of economic research and data collection services. Mathematica Policy Research, Inc.
has approximately XXXX employees.

2. Accounting System

        Mathematica Policy Research, Inc. maintains a Deltek job cost accounting system
wherein contracts are assigned individual project numbers that are used to accumulate associated
direct costs and ODC costs booked in multiple service centers. Indirect costs are identified with
and accumulated under indirect cost pools and multiple service centers. Indirect expenses are
recorded and billed to projects using predetermined rates less a reduction factor for estimated
unallowable costs. The predetermined indirect pool rates, which include the multiple service
center variances, are adjusted to actual allowable rates at final voucher submission following
contract completion. The contractor's accounting system is considered to be adequate for the
accumulation, reporting, and billing costs on government contracts. The following schedule
describes Mathematica Policy Research Inc. indirect cost pools and related allocation bases:

       Indirect Cost Pools and Allocation Bases:

       Indirect Cost Pool                             Allocation Base

       XXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXX




                                               12

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

                                         DCAA PERSONNEL

                                                                      Telephone No.
Primary contacts regarding this audit:

         David M. Carrick, Auditor                                    (609) 520-0733
         George B. Dowd, Supervisory Auditor                          (732) 532-5692

Other contact regarding this audit report:

         Joseph F. Alter, Branch Manager                              (856) 354-7550

                                                                      FAX No.
         Southern New Jersey Branch Office                            (856) 354-7520

                                                                      E-mail Address
         Southern New Jersey Branch Office                            dcaa-fao6341@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.



AUDIT REPORT AUTHORIZED BY:



                                                    /signed/
                                                    JOSEPH F. ALTER
                                                    Branch Manager
                                                    DCAA Southern New Jersey Branch Office




                                               13

                                XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                      E-mail Address
Department of Health and Human Services         MDodge@cms.hhs.gov
Centers for Medicare & Medicaid Services        srehe@oig.hhs.gov
ATTN: Marie E. Dodge, M.S. C2-21-15             Rb17i@nih.gov
7500 Security Blvd.
Baltimore, MD 21244

Social Security Administration                  Fred.Nordhoff@ssa.gov
Office of Acquisition and Grants
ATTN: Fred Nordhoff
6401 Security Blvd.
Room 4L1 Operations Bldg.
Baltimore, MD 21235

Social Security Administration                  Bob.L.Wilson@ssa.gov
Office of Acquisition and Grants
ATTN: Bob Wilson
1710 Gwynn Oak Avenue
Baltimore, MD 21207-5279

DCAA, Nashville Branch Office                   dcaa-fao1211@dcaa.mil
1321 Murfreesboro Pike, Suite 302
Nashville, TN 37217-2647

DCAA North Carolina Branch Office               dcaa-fao1281@dcaa.mil
415 North Edgeworth Street, Suite A
Greensboro, NC 27401-2163

DCAA Northern New England Branch Office         dcaa-fao2161@dcaa.mil
110 Hartwell Avenue, Suite 320
Lexington, MA 02421

DCAA Boston Branch Office                       dcaa-fao2171@dcaa.mil
101 Merrimac Street, Suite 820A
Boston, MA 02114

DCAA Long Island Branch Office-                 dcaa-fao2201@dcaa.mil
U.S. Courthouse & Federal Bldg.
300 Federal Plaza
Central Islip, NY 11722-4423



                                           14

                              XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019

                                                      E-mail Address
DCAA New York Branch Office                    dcaa-fao2211@dcaa.mil
201 Varick Street, Room 615
New York, NY 10014

DCAA Baltimore Branch Office                   dcaa-fao6141@dcaa.mil
8441 Belair Road, Suite 102
Baltimore, MD 21236

DCAA Silver Spring Branch Office               dcaa-fao6221@dcaa.mil
20251 Century Blvd., Suite 320
Germantown, MD 20874

DCAA Columbia Branch Office                    dcaa-fao6311@dcaa.mil
One Mall North, Suite 200
10025 Governor Warfield Parkway
Columbia, MD 21044

DCAA Rosslyn Branch Office                     dcaa-fao6331@dcaa.mil
6800 Versar Center
Suite 329, 3rd Floor
Springfield, VA 2151

DCAA Southern New Jersey Branch Office         dcaa-fao6341@dcaa.mil
Woodcrest Pavilion
10 Melrose Avenue, Suite 200
Cherry Hill, NJ 08003

DCAA Pennsylvania Branch Office                dcaa-fao6701@dcaa.mil
700 American Avenue, Suite 100
King of Prussia, PA 19406

Mathematica Policy Research, Inc.              (Copy furnished thru
                                                DHHS and SSA)
600 Alexander Park
Princeton, NJ 08543-2393

RESTRICTIONS

1. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX



                                         15

                             XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019



2. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

3. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

4. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                      16

                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019




5.



                                      17

                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019             APPENDIX 2




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6341-2003A10100019             APPENDIX 3




                          XXXXXXXXXXXXXXXXXXX
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6341–2004A10100013

                                                                     September 11, 2006

PREPARED FOR: Department of Health and Human Services
              Centers for Medicare & Medicaid Services
              ATTN: Marie E. Dodge, M.S. C2-21-15
              Acquisition Price/Cost Analyst
              7500 Security Blvd.
              Baltimore, MD 21244

PREPARED BY:      DCAA Southern New Jersey Branch Office
                  Woodcrest Pavilion
                  10 Melrose Avenue, Suite 200
                  Cherry Hill, NJ 08003-3647
                      Telephone No.      (856) 354-7550
                      FAX No.            (856) 354-7520
                      E-mail Address     dcaa-fao6341@dcaa.mil

SUBJECT:          Report on Audit of Incurred Costs and T&M Billing Amounts for FY
                  2004 and Supplemental Audit of Direct Costs for FY 2001, 2002, and
                  2003 for the National Science Foundation

CONTRACTOR:       Mathematica Policy Research, Inc. (Cage Code 5D318)
                  600 Alexander Park
                  Princeton, NJ 08543-2393

REPORT RELEASE RESTRICTIONS: See Page 15
                                                                                    Page
CONTENTS:         Subject of Audit                                                    1
                  Scope of Audit                                                      1
                  Results of Audit                                                   2
                  Contractor Organization and Systems                                14
                  DCAA Personnel and Report Authorization                            15
                  Audit Report Distribution and Restrictions                         16
                  Certificate of Indirect Costs                                   Appendix 1
                  Cumulative Allowable Cost Worksheet                             Appendix 2
                  Contractor’s Objection to Release Statement                     Appendix 3




                        XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                     SUBJECT OF AUDIT

         We examined the Mathematica Policy Research, Inc.’s (MPR) March 14, 2006 certified
final indirect cost rate proposal and related books and records for reimbursement of the fiscal year
ended December 31, 2004 incurred costs and T&M amounts. We also examined the direct costs
submitted for reimbursement under National Science Foundation contracts for FY-2001 through
FY 2004. The purpose of the examination was to determine the allowability of the direct and
indirect costs and T&M amounts and recommend Contracting Officer determined indirect cost
rates for the Fiscal Year of 1 January 2004 through December 31, 2004 for the Department of
Health and Human Resources (DHHS), the Social Security Administration, (SSA), the National
Science Foundation (NSF) and the Department of Agriculture (USDA) contracts and subcontracts.
The proposed rates for FY 2004 apply primarily to the flexibly priced contracts and subcontracts
listed in Exhibit B. A copy of MPR's Certificate of Final Indirect Costs, dated March 14, 2006,
is included as Appendix 1 to this report.

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.


                                       SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records examined are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    sampling billings for T&M orders to determine usage of proper contracted labor
            category rates;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •    Federal Acquisition Regulations (FAR);
       •    Health and Human Services Acquisition Regulations (HHSAR);
       •    Agriculture Acquisition Regulations (AGAR), Defense FAR Supplement; and
       •    Cost Accounting Standards.




                              XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

        For FY-2001 through FY-2004, we consider the Mathematica Policy Research Inc.’s
(MPR) accounting system to be adequate for the accumulation, reporting, and billing costs on
government contracts, as described in the Contractor Organization and Systems section of this
report. The scope of our examination reflects our assessment of control risk and includes tests of
compliance with laws and regulations that we believe provide a reasonable basis for our opinion.
Our assessment of control risk reflects that we have not specifically tested the effectiveness of
MPR’s systems and related internal controls.

       The concurrent verification of materials was omitted in this examination.

QUALIFICATIONS

1.      The Department of Labor (DOL) and the Department of Education (DOE) declined our
offer of audit services. Our review was limited to DHHS, SSA, NSF and USDA FY 2004
auditable prime and subcontract effort. Our audit is qualified to the extent that the audit of DOL
and DOE was not accomplished. Therefore, we express no opinion on the allowability of the
recorded cost related to flexibly priced contracts and subcontracts for DOL and DOE. As such,
the information contained in the report is not acceptable as a basis for determining allowability
of the unaudited direct costs for contract closeout purposes that pertain to the U.S. Departments
of Labor and Education.

2.       DHHS declined our offer of audit services regarding subcontract assist audits. Our audit
is qualified to the extent that audit of flexibly priced subcontractors was not accomplished.
Therefore, we express no opinion on the allowability of the recorded costs related to auditable
subcontracts under the auditable DHHS flexibly priced prime contracts and T&M subcontracts
for FY 2004. The information contained in the report is not acceptable as a basis for determining
allowability and allocability of the unaudited direct costs for contract closeout purposes that
pertain to subcontract direct costs under auditable DHHS flexibly priced prime contracts and
T&M subcontracts for FY 2004.


                                     RESULTS OF AUDIT

       Indirect Rates In our opinion, the contractor’s proposed indirect rates are acceptable as
adjusted by our examination. The examination results and recommendations are presented
below.

        Direct Costs In our opinion, except for qualifications noted above, the claimed direct
costs for FYs 2001, 2002 and 2003 under the NSF flexibly priced contracts and subcontracts and
for FY 2004 under NSF, DHHS, NSF and the USDA flexibly priced contracts and subcontracts
are acceptable and are provisionally approved pending final acceptance. However, we
questioned $1,878 of direct travel costs claimed in FY 2004 on Social Security Administration
Contract Number 0600-03-60129 (see details in note below). Final acceptance of amounts under
government contracts does not take place until performance under the contract is completed and
accepted by the cognizant authorities and the audit responsibilities have been completed.

                                                2

                              XXXXXXXXXXXXXXXXXXXXX
  AUDIT REPORT NO. 6341-2004A10100013

           FY 2004 Direct Travel Costs We questioned $1,878 of direct travel costs claimed for
 FY 2004 on Social Security Administration Contract Number 0600-03-60129. We reviewed the
 direct travel costs for Task 111 on Voucher Nos. 125224 and 125306 booked in May 2004.
 Questioned costs represent the difference between the FY 2004 GSA daily lodging allowance and
 the daily lodging amounts incurred by MPR employees during a specific trip. The company
 representative agreed. The questioned direct costs have no impact on the submitted indirect rates.

          Penalties for Unallowable Costs Indirect costs questioned in this examination of $4,079
  are believed to be subject to penalties provided in FAR 42-709. Refer to Notes 2, 3 and 5 of
  Exhibit A for details. Of these amounts, $1,399 in the Overhead Burden expense pool were
  allocable to the prime contracts (listed in Exhibit B) specified in FAR 42.709(b). Subcontracts
  are exempt from the DFAR penalty. The amounts are not recommended for penalties; however,
  because they are less than the $10,000 waiver threshold discussed in FAR 42-709-5.

          Cumulative Allowable Cost Worksheet (CACWS) The purpose of this audit is to
  recommend Contracting Officer determined final indirect cost rates as mentioned above;
  nevertheless, we have quantified and provided the cumulative allowable costs as Appendix 2
  based on the results of our audit and as agreed to by the contractor. These represent costs that
  are considered allowable under the listed contracts and subcontracts and are, therefore,
  reimbursable pending any further adjustments by contracting officers. It should be noted that we
  have questioned $4,029 and $3,127 for costs outside the period of performance on HHS
  contracts and subcontracts, respectively, and $224,494 and $107,011 for costs in excess of
  ceiling amounts on HHS contracts and subcontracts, respectively. For SSA we have questioned
  $267,828 for costs in excess of ceiling amounts on SSA prime contracts. For those contracts and
  subcontracts identified as “Ready to Close,” the information on the CACWS should be used to
  close out contracts.

                               SUMMARY OF AUDIT RESULTS
                               Fiscal Year Ended December 31, 2004
  Indirect                           Proposed                            Questioned
  Category              Pool            Base         Rate        Pool        Base       Rate     Ref.
XXXXXXXXX       (a)   XXXXXXX        XXXXXXX        XXXXX       XXXXX         $0         -        -
XXXXXXXXX       (b)   XXXXXXX        XXXXXXX        XXXXX       XXXXX         $0         -        -
XXXXXXXXX       (c)   XXXXXXX        XXXXXXX        XXXXX       XXXXX         $0        XXX     Exh. A
XXXXXXXXX       (d)   XXXXXXX        XXXXXXX        XXXXX       XXXXX         $0         -        -
XXXXXXXXX       (e)   XXXXXXX        XXXXXXX        XXXXX       XXXXX      ($31,779)    XXX     Exh. A

  Description of Allocation Bases:
         a. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
         b. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
         c. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
         d. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
         e. XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
  XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

                  GOVERNMENT PARTICIPATION IN ALLOCATION BASES
                                       3

                               XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                          Fiscal Year Ended December 31, 2004

                            Contract Type In Allocation Base

                              Government          Government
                              Flexibly Priced     Firm Fixed Price and
        Category              Contracts/Subs      Commercial Work        Total
    XXXXXXXXXXXXXX               XXXXXXXX               XXXXXXXX         XXXXX
    XXXXXXXXXXXXXX               XXXXXXXX               XXXXXXXX         XXXXX
    XXXXXXXXXXXXXX               XXXXXXXX               XXXXXXXX         XXXXX
    XXXXXXXXXXXXXX               XXXXXXXX               XXXXXXXX         XXXXX
    XXXXXXXXXXXXXX               XXXXXXXX               XXXXXXXX         XXXXX


       We provided and discussed the audit results with XXXXXXXX, MPR Internal Auditor,
on July 24, 2006, who concurred with our findings.




                                           4

                           XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                                                              EXHIBIT A

     STATEMENT OF PROPOSED OVERHEAD AND G&A AND RESULTS OF AUDIT

                              Fiscal Year Ended December 31, 2004

                                                  Overhead          G&A             Ref.
Contractor's Indirect Expenses:
Total Indirect Expenses                         XXXXXXX         XXXXXXX
Voluntary Deletions                             XXXXXXX         XXXXXXX            Note 1
Claimed Costs                          (A)      XXXXXXX         XXXXXXX

Results of Audit Review
Questioned Expenses:
Licenses and Fees (Fine
&Penalty)                                       XXXXXXX                            Note 2
Miscellaneous (Entertainment)                   XXXXXXX                            Note 3
Outside Services (legal)                        XXXXXXX                            Note 4
Travel & Subsistence                            XXXXXXX                            Note 5
Other Recruiting Expenses                       XXXXXXX                            Note 6
Total Questioned Expenses              (B)      XXXXXXX
Adjusted Expenses (A-B)                (C)      XXXXXXX         XXXXXXX

Allocation Bases:
Claimed Bases                          (D)      XXXXXXX         XXXXXXX

Adjustments to Bases                                      XXXXXXX                  Note 7
Audit Adjusted Bases                   (E)      XXXXXXX $ XXXXXXX

Indirect Expense Rates
Claimed Rates                         (A/D)     XXXXXXX         XXXXXXX
Audit Adjusted Rates                  (C/E)     XXXXXXX         XXXXXXX
Questioned Rates                                XXXXXXX         XXXXXXX

( ) Denotes an upward adjustment

EXPLANATORY NOTES:

1.      Voluntary Deletions

        a. Summary of Conclusions:

        We take no exceptions to MPR’s proposed voluntary deletions for FY 2004.

                                              5

                              XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013




       b. Basis of Contractor’s Cost:

        The contractor’s voluntary deletions of XXXXXX in the Overhead Burden expense pool
consist mainly of FAR 31.205 expressly unallowable costs for merger and acquisition, relocation
and travel and subsistence. The contractor’s voluntary deletions of $63,926 in the G&A
expense pool consist primarily of unallowable rent and travel and subsistence.

       c. Audit Evaluation:

        We traced and verified the proposed voluntary deletions to the contractor’s books of
record. We reviewed the contractor’s financial statements, income tax return, Board of
Director’s minutes, and year-end adjusting journal entries. We reviewed the contractor’s
established accounting policies and procedures. We performed a review to determine that the
contractor included all directly associated unallowable costs with the voluntary deleted amounts.

2.     Licenses and Fees

       a. Summary of Conclusions:

        We questioned indirect miscellaneous expenses of $3,459 in the overhead burden expense pool
based on FAR 31.205-15 “Fines, Penalties, and Mischarging Costs”. Expense Voucher 132456 is the
result of a penalty assessed by the State of New York to Mathematica Policy Research, Inc. for
violation of the Disability Benefits Law for the period 11/02/2002 to 01/14/2004. These costs are
expressly unallowable and subject to a penalty.

       b. Basis of Contractor’s Cost:

       Represents indirect licenses and fees charged to Account # 4100-016-000 in the overhead
burden expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect licenses and fees incurred and reviewed supporting invoices in
order to make a determination of allocability, allowability, and reasonableness in accordance
with the FAR cost principles.

       d. Contractor’s Reaction:

       The contractor’s representative agreed with the questioned costs.

3.     Miscellaneous Expenses


                                                6

                              XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

       a. Summary of Conclusions:

        We questioned indirect miscellaneous expenses of $188 in the overhead burden expense pool
based on FAR 31.205-14 “Entertainment Costs”. Expense Voucher 127092 was for purchase of food
for entertainment. These costs are expressly unallowable and subject to a penalty.

       b. Basis of Contractor’s Cost:

      Represents indirect expenses charged to Account # 4100-017-000 in the overhead burden
expense pool.

       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect miscellaneous expenses incurred and reviewed supporting
invoices in order to make a determination of allocability, allowability, and reasonableness in
accordance with the FAR cost principles.

       d. Contractor’s Reaction:

       The contractor’s representative agreed with the questioned costs.

4.     Outside Services

       a. Summary of Conclusions:

       We questioned legal expenses of $2,259 in the overhead burden expense pool based on FAR
31-201.4 “Determining Allocability”. Legal costs were not related to work and are not allocable to
government contracts.

       b. Basis of Contractor’s Cost:

       Represents legal costs not related to work charged to Account # 4100-008-000 in the
overhead burden expense pool. Legal expenses were associated with forms, processing and
support.
       c. Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect outside services costs incurred and reviewed the basis for the
expense in order to make a determination of allocability, allowability, and reasonableness in
accordance with the FAR cost principles.

       d. Contractor’s Reaction:

       The contractor’s representative agreed with the questioned costs.

                                                 7

                              XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

5.     Travel and Subsistence

       a. Summary of Conclusions:

        We questioned indirect travel and subsistence costs of $1,609 in the overhead burden expense
pool. Of the questioned costs, $1,177 represents direct travel costs of a specific non-federal contract
and is considered not allocable to government contracts per FAR 31.201-4. We questioned $332 based
on FAR 31.205.14 “Entertainment Costs” for travel expenses related to a trip. We also questioned
$100 based on FAR 31.205-46 “Travel Costs” for first class airfare. The questioned entertainment cost
and travel costs of $432 are expressly unallowable and subject to a penalty.

       b. Basis of Contractor’s Cost:

      The $1,609 represents indirect travel and subsistence costs charged to Account # 4100-
015-000 in the overhead burden expense pool.

       c.   Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the indirect travel and subsistence costs incurred and reviewed supporting
travel expense reports, travel requisitions, and receipts in order to make a determination of
allocability, allowability, and reasonableness in accordance with the FAR cost principles. We
reviewed the contractor’s established travel policies and procedures.

       d. Contractor’s Reaction:

       The contractor’s representative agreed with the questioned costs.

6.     Other Recruiting Expenses

       a. Summary of Conclusions:

       We questioned other recruiting expenses of $600 in the overhead burden expense pool as
unallocable in accordance with FAR 31.201-4 “Determining Allocability”.

       b. Basis of Contractor’s Cost:

      The $600 relates to the portion of travel expenses reimbursed to a potential employee
which were not related to the interview.

       c.   Audit Evaluation:

        We traced and verified the proposed costs to the contractor’s books of record. We
selected a sample of the other recruiting expenses incurred and reviewed supporting expense
reports, travel requisitions, and receipts in order to make a determination of allocability,

                                                8

                                XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

allowability, and reasonableness in accordance with the FAR cost principles. We reviewed the
contractor’s established travel policies and procedures.

       d. Contractor’s Reaction:

       The contractor’s representative agreed with the questioned costs.

7.     Total Cost Input Base

       a. Summary of Conclusions:

        We increased the total cost input base to reflect XXXXXXXXX in immigration expenses so
that the expenses properly bear their pro rata share of G&A expense.

       b. Basis of Contractor’s Cost:

       On March 14, 2006, the contractor revised its FY 2004 incurred cost submission adding
immigration support and processing expenses previously considered unallowable. The expenses
were added to the overhead burden expense pool, but were not added to the total cost input base.

      c.   Audit Evaluation:

        We traced and verified the proposed adjustment to the contractor’s books of record. We
selected a sample of the immigration processing and support costs incurred. We reviewed the
basis of the expenses in order to make a determination of allocability, allowability, and
reasonableness in accordance with the FAR cost principles. We reviewed the total cost input
base for G&A expense allocation to determine that the expenses were properly included.

       d. Contractor’s Reaction:

       The contractor’s representative agreed with the questioned costs.




                                               9

                               XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                                                   EXHIBIT B

                  SCHEDULE OF FLEXIBLY PRICED CONTRACTS
                       AND SUBCONTRACTS IN FY 2004

                  Department of Health and Human Services (DHHS)

PRIME CONTRACTs
MPR Project No.      Prime Contract No.        Contract Type
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX
XXXX                 XXXXXXXXXXX                  XXXXX


                                          10

                        XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013



              Department of Health and Human Services (DHHS)

PRIME CONTRACT
MPR Project No.   Prime Contract No.        Contract Type
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX
XXXX               XXXXXXXXXXX                 XXXXX




                                       11

                       XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                Department of Health and Human Services (DHHS)

SUBCONTRACTS
MPR Project No.    Prime Contract No.           Prime Contractor   Contract Type
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX


                Department of Health and Human Services (DHHS)

SUBCONTRACTS
MPR Project No. Prime Contract No.           Prime Contractor      Contract Type

XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX
XXXX              XXXXXXXXXXX                   XXXXXXXXXXX            XXXXX



                                        12

                         XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                          Social Security Administration

PRIME CONTRACT
MPR Project No. Prime Contract No.          Contract Type
XXXX            XXXXXXXXXX                     XXXX
XXXX            XXXXXXXXXX                     XXXX
XXXX            XXXXXXXXXX                     XXXX

XXXX              XXXXXXXXXX                   XXXX

                           Department of Agriculture

PRIME CONTRACT
MPR Project No. Prime Contract No.          Contract Type
XXXX            XXXXXXXXXX                     XXXX
XXXX            XXXXXXXXXX                     XXXX
XXXX            XXXXXXXXXX                     XXXX

XXXX              XXXXXXXXXX                   XXXX
XXXX              XXXXXXXXXX                   XXXX
XXXX              XXXXXXXXXX                   XXXX

XXXX              XXXXXXXXXX                   XXXX
XXXX              XXXXXXXXXX                   XXXX
XXXX              XXXXXXXXXX                   XXXX
XXXX              XXXXXXXXXX                   XXXX


                           National Science Foundation

PRIME CONTRACT
MPR Project No. Prime Contract No.          Contract Type
XXXX            XXXXXXXXXX                     XXXX
XXXX            XXXXXXXXXX                     XXXX
XXXX            XXXXXXXXXX                     XXXX




                                       13

                        XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                    CONTRACTOR ORGANIZATION AND SYSTEMS

1.     Organization

        Mathematica Policy Research, Inc. was incorporated in the State of Delaware in 1976.
Sales totaled XXXXXXX for the Year Ended December 31, 2005. Approximately XXXXX or
XXXXXXXXX of Mathematica Policy Research Inc. sales are applicable to government flexibly
priced contracts and subcontracts for Fiscal Year Ending December 31, 2005. The remaining
sales represent commercial and firm fixed-price contracts. Mathematica Policy Research, Inc.
sales relate to the providing of economic research and data collection services. Mathematica
Policy Research, Inc. has XXX employees.

2.     Accounting System

        Mathematica Policy Research, Inc. maintains a Deltek job cost accounting system
wherein contracts are assigned individual project numbers that are used to accumulate associated
direct costs and ODC costs booked in multiple service centers. Indirect costs are identified with
and accumulated under indirect cost pools and multiple service centers. Indirect expenses are
recorded and billed to projects using predetermined rates less a reduction factor for estimated
unallowable costs. The predetermined indirect pool rates, which include the multiple service
center variances, are adjusted to actual allowable rates at final voucher submission following
contract completion. The contractor's accounting system is considered to be adequate for the
accumulation, reporting, and billing costs on government contracts. The following schedule
describes Mathematica Policy Research, Inc.’s indirect cost pools and related allocation bases:

       Indirect Cost Pools and Allocation Bases:

       Indirect Cost Pool                   Allocation Base

       XXXXXXXXXXXXX                       XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXX                       XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXX                       XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXX                       XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXX                       XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXX                       XXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                               14

                             XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                         DCAA PERSONNEL

                                                                      Telephone No.
Primary contacts regarding this audit:

         Mark Tierney, Auditor                                        (609) 720-3562
         George B. Dowd, Supervisory Auditor                          (732) 532-5692
         John J. Mulkeen, Technical Specialist                        (856) 354-7521

Other contact regarding this audit report:

         Joseph F. Alter, Branch Manager                              (856) 354-7550

                                                                      FAX No.
         DCAA Southern New Jersey Branch Office                       (856) 354-7520

                                                                      E-mail Address
         DCAA Southern New Jersey Branch Office                       dcaa-fao6341@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.


AUDIT REPORT AUTHORIZED BY:



                                                      /Signed/
                                                    JOSEPH F. ALTER
                                                    Branch Manager
                                                    DCAA Southern New Jersey Branch Office




                                               15

                              XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                         E-mail Address

Department of Health and Human Services                  MDodge@cms.hhs.gov
Centers for Medicare & Medicaid Services                 srehe@oig.hhs.gov
ATTN: Marie E. Dodge, M.S. C2-21-15                      Rb17i@nih.gov
7500 Security Blvd.
Baltimore, MD 21244

Social Security Administration                           Fred.Nordhoff@ssa.gov
Office of Acquisition and Grants
ATTN: Fred Nordhoff
6401 Security Blvd.
Room 4L1 Operations Bldg.
Baltimore, MD 21235

Social Security Administration                           Bob.L.Wilson@ssa.gov
Office of Acquisition and Grants
ATTN: Bob Wilson
1710 Gwynn Oak Avenue
Baltimore, MD 21207-5279

National Science Foundation                              deid@nsf.gov
Office of Inspector General
ATTN: David Eid
4201 Wilson Boulevard
Arlington, Virginia 22230

USDA
United States Department of Agriculture                  Hong-
                                                         Tuyen.Nguyen@usda.gov
ATTN: Hong-Tuyen Nguyen                                  jlmoore@oig.usda.gov
USDA-OIG/Administration & Finance Division
1400 Independence Ave., SW, Stop 2316
Washington, D. C. 20250

DCAA, Nashville Branch Office (MPR Project No. 8467)     dcaa-fao1211@dcaa.mil
1321 Murfreesboro Pike, Suite 302
Nashville, TN 37217-2647

Bay States Branch Office (MPR Project Nos. 6144, 8925)   dcaa-fao2701@dcaa.mil
59 Composite Way, Suite 301
Lowell, MA 01851

                                            16

                              XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013




DCAA Boston Branch Office                            dcaa-fao2171@dcaa.mil
(MPR Project Nos. 8522 and 8950)
101 Merrimac Street, Suite 820A
Boston, MA 02114

DCAA New York Branch Office (MPR Project No. 8803)   dcaa-fao2211@dcaa.mil
201 Varick Street, Room 615
New York, NY 10014

DCAA Baltimore Branch Office                         dcaa-fao6141@dcaa.mil
(MPR Project Nos. 8908, 8775)
8441 Belair Road, Suite 102
Baltimore, MD 21236

DCAA Columbia Branch Office                          dcaa-fao6311@dcaa.mil
(MPR Project Nos. 8437, 8945, 6139, 6143, 8826)
One Mall North, Suite 200
10025 Governor Warfield Parkway
Columbia, MD 21044

DCAA Southern New Jersey Branch Office               dcaa-fao6341@dcaa.mil
(MPR Project Nos. 8857, 8858)
Woodcrest Pavilion
10 Melrose Avenue, Suite 200
Cherry Hill, NJ 08003

DCAA Pennsylvania Branch Office                      dcaa-fao6701@dcaa.mil
(MPR Project Nos. 8317, 8753, 8851, 6030)
700 American Avenue, Suite 100
King of Prussia, PA 19406

Mathematica Policy Research, Inc.                    (Copy furnished thru
600 Alexander Park                                    DHHS, SSA, USDA and
Princeton, NJ 08543                                  NSF)




                                            17

                            XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

XXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                      18

                      XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                              Appendix 1




                                      19

                      XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                              Appendix 2
                                              Page 1 of 4




                                      20

                      XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                              Appendix 2
                                              Page 2 of 4




                                      21

                      XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                              Appendix 2
                                              Page 3 of 4




                                      22

                      XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                              Appendix 2
                                              Page 4 of 4




                                      23

                      XXXXXXXXXXXXXXXXXXXXX
AUDIT REPORT NO. 6341-2004A10100013

                                              Appendix 3




                                      24

                      XXXXXXXXXXXXXXXXXXXXX
